                            REDACTED VERSION


 FOLLOW-UP AUDIT OF THE IMMIGRATION AND NATURALIZATION
         SERVICE’S AIRPORT INSPECTION FACILITIES


                           EXECUTIVE SUMMARY

      According to Immigration and Naturalization Service (INS) records,
during fiscal year 2001 the INS processed 43.1 million alien passengers
through Federal Inspection Services (inspection) areas at 159 airports. The
INS designates which airports may receive international passengers, based
on whether individual airlines and airport authorities furnish suitable landing
stations in accordance with the Immigration and Nationality Act of 1952
(Act). The INS is authorized to withdraw such designations if circumstances
warrant.

      The INS, along with other federal inspection agencies, approves the
design of inspection areas. At the INS’s request, we conducted an audit of
inspection areas at international airports during 1999. We conducted on-site
reviews at 12 airports and received surveys from INS staff at 30 additional
airports. Our audit found deficiencies at all 42 airports reviewed. Inspection
areas were poorly designed and had numerous monitoring, surveillance, and
communication deficiencies. Hold rooms were too small and did not permit
separate confinement of male, females, and juvenile detainees. As a result,
airports were vulnerable to illegal entry, escapes, injuries, and the hiding or
disposing of contraband and documents. We recommended that the INS
take steps to correct the deficiencies and improve the condition of its
inspection facilities.

       We initiated this follow-up audit because of the severity and number of
deficiencies found during the 1999 audit, and because of the INS’s difficulty
in taking effective corrective action. The increased importance of the INS’s
mission regarding the security of our borders added to the urgency of
performing this audit. Our prior audit recommendations and the actions the
INS took in response to them are detailed in the Findings and
Recommendations section of this report.

      In May 2002, we began our follow-up audit work at INS headquarters,
where we interviewed officials to determine what actions the INS took to
implement the recommendations outlined in the prior audit report. We also
performed on-site follow-up reviews at 12 international airports. The 12
airports we reviewed (Appendix I, page 20) account for about [SENSITIVE
INFORMATION DELETED] percent of the international passengers processed
through secondary inspection areas during 2001. The secondary inspection

                                       i

                            REDACTED VERSION
                                     REDACTED VERSION


area is where passengers may be referred for additional interviews, further
examination of documents, processing of additional documents, or
placement into hold rooms.

       We found that the INS took insufficient action to implement the prior
audit recommendations. It had not communicated needed improvements to
airlines and airport authorities, and it had not developed a program to
review existing facilities. Nor did we find that the INS successfully applied
sanctions1 against airlines for failing to provide suitable facilities. Further,
the INS did not develop performance measures related to the improvement
of airport inspection area facilities. Moreover, we found that the INS had not
even advised its own airport staff of the results of the prior audit.

      Thus, we found that all 12 airports reviewed in this follow-up audit had
both repeat deficiencies and deficiencies based on the new requirements.
For example, airports did not have emergency exits with both a local alarm
and an alarm generated at a central location, had no intercoms between
access control points and the command center, had no way for primary
inspectors to contact the command center, and had hold room doors that
could not be easily unlocked by INS staff during an emergency. We found
evidence of escapes and injuries that occurred because these deficiencies
had not been corrected.

      We also found additional deficiencies not previously identified.2 For
example, secondary inspection areas did not have adequate camera
coverage, interview rooms did not have a system to video record interviews,
and not all gates leading in and out of the in-transit lounge had camera
coverage. Further, security systems and equipment were ineffective.
[SENSITIVE INFORMATION DELETED] of 12 airports we reviewed during the
current audit either did not test security and communications systems or
testing was not adequate. We found inoperable alarms and cameras, and
security features that had been turned off, were not monitored, or had not
been installed.

      We concluded that the underlying causes for these deficiencies were
rooted in perceptions held by INS officials regarding airport facilities. They
considered that airport security is not a primary responsibility of the INS.
Thus, INS staff were unaware that exits were unsecured, and locks, alarms,

1
   Sanctions could range from prohibiting an airline from using a particular gate, to prohibiting the
airline from deplaning passengers anywhere at the airport.

2
  The construction requirements INS published in February 2002 cover areas not addressed in its
earlier publications or reviewed during the prior audit.
                                                    ii

                                     REDACTED VERSION
                                     REDACTED VERSION


and cameras were inoperable. However, according to the ATR, the INS has
the responsibility to ensure that there are adequate countermeasures in
place within the physical security system of the Federal Inspection Services
area to maintain border integrity. Also, INS officials believed that the airline
lobby was so powerful that the INS would be unable to exert its authority to
impose sanctions when airlines or airport authorities did not furnish
adequate facilities. And finally, INS officials did not think that poor facilities
were related to serious consequences. INS staff did not believe that
escapes, assaults, or injuries resulted from inadequacies in facilities.

      By not addressing the risks associated with poor facilities and
exercising its authority to impose sanctions where necessary, the INS
continued to undermine its ability to influence airlines and airport authorities
to meet standards. As a result, airports continue to be vulnerable to illegal
entry, escapes, injuries, and smuggling of aliens and contraband into the
United States.

       The details of our work are contained in the Finding and
Recommendations section of the report.3 Our audit objectives, scope, and
methodology are contained in Appendix I. A glossary of terms used in the
report is contained in Appendix II, and the locations where specific
deficiencies were noted are contained in Appendix III.




3
   As part of our audit process, we asked INS headquarters to furnish us with a signed management
representation letter containing assurances that our staff were provided with all necessary documents
and that no irregularities exist that we were not informed about. As of the date of issuance of this
report, the INS has declined to sign the letter. Therefore, our findings are qualified to the extent that
we may not have been provided with all relevant information by INS management.
                                                   iii

                                     REDACTED VERSION
                                 REDACTED VERSION


                                  TABLE OF CONTENTS

                                                                                      Page
INTRODUCTION .......................................................................... 1
      Background ..................................................................... 1
      Prior Audit Results ............................................................ 3
      Our Follow-up Audit .......................................................... 4

FINDING AND RECOMMENDATIONS ............................................... 6

        THE INS HAS MADE LITTLE PROGRESS IN IMPROVING
        INSPECTION FACILITIES .................................................... 6
            Actions Taken on Prior Audit Recommendations .............. 7
            Conditions Noted During the Current Audit ................... 10
            Conclusion ............................................................... 16
            Recommendations .................................................... 17

STATEMENT ON MANAGEMENT CONTROLS ................................... 18

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....... 19

APPENDIX I -- OBJECTIVES, SCOPE, AND METHODOLOGY .............. 20

APPENDIX II -- GLOSSARY ......................................................... 22

APPENDIX III -- DESCRIPTION AND LOCATION OF NEW
   AND REPEAT DEFICIENCIES................................................... 24

APPENDIX IV – OFFICE OF THE INSPECTOR GENERAL, AUDIT
   DIVISION SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ......................................................... 33




                                 REDACTED VERSION
                         REDACTED VERSION


                           INTRODUCTION


Background

       According to Immigration and Naturalization Service (INS)
records, during fiscal year 2001 it admitted 43.1 million alien
passengers into the inspection areas at 159 airports. Section 233 of
the Immigration and Nationality Act of 1952 (Act) requires every
transportation line carrying aliens to the United States to provide and
maintain, at their expense, suitable landing stations approved by the
Attorney General. As stated in 8 CFR Part 234, the INS Commissioner
is authorized to designate which airports may receive aliens and thus
serve as international ports of entry. Airports so designated must
provide adequate facilities for the proper inspection and disposition of
aliens, including office space and temporary detention facilities. The
Commissioner is also authorized to withdraw an airport’s designation
as a landing station if, in the Commissioner’s judgment, there is just
cause for such action.

        Federal inspection agencies operating at airports include the INS,
U.S. Customs Service (Treasury), Public Health Service (Health and
Human Services), Animal and Plant Health Inspection Service
(Agriculture), and the U.S.
Fish and Wildlife Service
(Interior). The inspection
agencies specify what
facilities must be provided,
which include offices,
inspection booths,
conveyors, x-ray systems,
and other equipment
necessary to monitor,
control, and operate
inspection facilities. The
space provided is called the
Federal Inspection Services
(FIS) area. Although it has         Primary Inspection Area, [SENSITIVE
                                    INFORMATION DELETED]
no authority over airport
construction, the INS, along with the other inspection agencies,
approves the design of inspection facilities. Accordingly, inspection
areas under the INS’s control must have security policies and

                                    1

                         REDACTED VERSION
                         REDACTED VERSION

procedures that prevent arriving passengers from circumventing the
inspection process.

       INS inspectors must determine an alien’s eligibility to enter the
United States. If an alien’s eligibility is questionable, inspectors are to
refer them to a secondary processing area where inspectors conduct
interviews and further examine the alien’s travel documents. If
needed, inspectors should detain the alien in a hold room – a secure
confinement room where persons are held temporarily pending further
investigation or transfer to another facility. All ports of entry must
have inspection areas, interview rooms, and hold rooms of adequate
size, design, and construction.

      Prior to February 2002, the most important design, construction
and security requirements were contained in the following Federal
Aviation Administration (FAA) and INS publications and policy
memoranda:

   •   Federal Aviation Administration’s Planning and Design Guidelines
       for Airport Terminal Facilities, 1988 Edition (FAA 1988
       Guidelines).

   •   Hold Room Design Standards. Published in January 1993.

   •   Federal Aviation Administration’s Planning and Design Guidelines
       for Airport Terminal Facilities, 1994 Edition (FAA 1994
       Guidelines).

   •   Airport Federal Inspection Facilities Guidelines, 1994 Edition
       (1994 Guidelines).

   •   Secondary Detention Procedures at Ports-of-Entry. A policy
       memorandum issued by the INS in August 1996.

   •   Things to Look For in the Design of Inspection Facilities at
       Airports, Seaports, and Ferryports. Published by the INS in
       February 1999.

   •   Federal Inspection Services’ Airport Facility Guidelines, 2000
       Edition (2000 Guidelines).

   •   Airport Border Integrity Antiterrorism Program Overview
       (Overview). Published in 1999 by the INS.

                                     2

                         REDACTED VERSION
                        REDACTED VERSION



       In February 2002 the INS published the Air Ports-of-Entry
Technical Requirements (ATR) with technical assistance from the INS’s
Offices of Inspections, Facilities and Engineering, Operations,
Information Resource Management, and Security. These requirements
were published to assist architects, engineers, and planners in
designing, building and renovating INS inspection facilities at
international airports. The ATR includes requirements found in earlier
publications as well as newly promulgated requirements for the
secondary inspection area, interview rooms, search rooms, Joint
Agency Coordination Center (JACC)/INS Coordination Center (ICC),
and in-transit lounges (ITL). In February 2002, the INS provided the
finalized ATR to the Air Transport Association, American Association of
Airport Executives, and Airports Council International.

       At our exit conference with the INS, a headquarters Office of
Facilities and Engineering official commented that the ATR is used as a
yardstick to measure airport compliance with standards. An INS
headquarters official also commented that the INS is responsible for
border integrity not airport security. However, according to the ATR,
the INS has the responsibility to ensure that there are adequate
countermeasures in place within the physical security system of the
FIS area to maintain border integrity.

Prior Audit Results

       In 1999, at the INS’s request we conducted an audit of airport
inspection and detention facilities (Immigration and Naturalization
Service’s Airport Inspection Facilities, Report No. 01-03, December
2000). The audit found that inspection areas at 42 international
airports were poorly designed and constructed, and had numerous
monitoring, surveillance, and communication deficiencies. Hold rooms
were too small and did not permit separate confinement of male,
female, and juvenile detainees. As a result, airports were vulnerable
to illegal entry, escapes, injuries, health hazards, and the hiding or
disposing of contraband or documents.

       These conditions existed primarily because the INS had not dealt
effectively with airlines and airport authorities by enforcing provisions
of the Immigration and Nationality Act when inspection facilities were
unacceptable. We found that the INS had not pursued a program to
require upgrading of older inspection facilities, construction took place
without the INS’s oversight or approval, and the INS’s system of on-

                                    3

                        REDACTED VERSION
                         REDACTED VERSION

site reviews needed improvement. In addition, the INS did not have
performance measures under the Government Performance and
Results Act to measure the adequacy of inspection facilities. Also, by
not exercising its authority to impose sanctions where necessary,
including restriction of landing station designations, the INS
undermined its ability to influence airlines and airport authorities to
meet standards.

Our Follow-up Audit

      We initiated this follow-up audit because of the significance and
number of deficiencies found during the prior audit and the INS’s lack
of progress in taking corrective action. Also, the increased importance
of the INS’s mission regarding the integrity of our borders added to
                                                    the urgency of
                                                    performing this
                                                    audit. Our audit
                                                    objectives were to
                                                    determine whether:
                                                    (1) the INS took
                                                    timely action to
                                                    implement the
                                                    recommendations
          SENSITIVE INFORMATION
                                                    from the December
                   DELETED
                                                    2000 report, and (2)
                                                    actions taken
                                                    resulted in
                                                    improvements at the
                                                    airports we identified
                                                    as having the most
                                                    serious deficiencies.

                                                           In May 2002,
we began our follow-up audit work at the INS headquarters, where we
interviewed officials to determine what actions the INS took to
implement the recommendations outlined in the prior audit report. We
reviewed the INS’s latest design and construction standards contained
in its recently published ATR. We incorporated, as appropriate,
elements from the ATR into a review checklist used to conduct our
audit. Examples of features we reviewed are: (1) audible and visual
alarms at emergency exits; (2) closed circuit television between access
portals and the Joint Agency Coordination Center (JACC); (3) absence
of hiding places in corridors; (4) arrival gates configured to ensure

                                    4

                         REDACTED VERSION
                        REDACTED VERSION

that passengers and crew cannot circumvent the inspection process;
(5) hold rooms with secure walls and ceilings, (6) interview rooms with
emergency call buttons and equipment to record the results of
interviews; and (7) command centers with up-to-date communications
equipment to monitor and respond to alarms within the FIS area; and
(8) in-transit lounges with cameras, locks, and alarms to prevent
aliens from escaping.

      We performed on-site follow-up reviews at 12 international
airports to determine the extent of any modifications resulting from
our prior audit. The 12 airports we reviewed (Appendix I, page 20)
account for [SENSITIVE INFORMATION DELETED] percent of the
international passengers processed through secondary inspection
areas during 2001.




                                   5

                        REDACTED VERSION
                        REDACTED VERSION

               FINDING AND RECOMMENDATIONS

     THE INS HAS MADE LITTLE PROGRESS IN IMPROVING
     INSPECTION FACILITIES

     Although construction and renovation projects have
     improved some facilities, we found repeat and new
     deficiencies at all 12 airports reviewed. Further, at
     [SENSITIVE INFORMATION DELETED] airports we found
     [SENSITIVE INFORMATION DELETED]. We found that
     testing of security systems and equipment was
     inadequate. INS staff at some airports said they did not
     conduct monitoring and surveillance activities because
     they were understaffed. Consequently, airports were still
     vulnerable to illegal entry, escapes, injuries, and hiding or
     disposing of contraband or documents. In our judgment,
     these conditions existed because INS headquarters did not
     notify airlines, airport authorities, or INS airport staff of
     the deficiencies noted in the prior audit. INS officials
     believed that the power of the airline lobby kept the INS
     from using its authority to enforce available sanctions, that
     security was not the INS’s responsibility, and that the
     failure of facilities to meet standards was unrelated to
     serious consequences. INS staff did not believe that
     escapes, assaults, or injuries resulted from inadequacies in
     facilities.

     Title 8 Part 234, Section 4 of the Code of Federal Regulations
(CFR) states in part,

     “International airports for the entry of aliens shall be
     those airports designated as such by the
     Commissioner…An airport shall not be so
     designated…unless adequate facilities have been or
     will be provided at such airport without cost to the
     Federal government for the proper inspection and
     disposition of aliens, including office space and such
     temporary detention quarters as may be found
     necessary. The designation of an airport as an
     international airport for the entry of aliens may be
     withdrawn whenever, in the judgment of the
     Commissioner, there appears just cause for such
     action.”
                                   6

                        REDACTED VERSION
                                REDACTED VERSION



      Our prior audit found that inspection areas were designed and
constructed improperly and lacked important surveillance and
communication equipment. The INS had not pursued a program to
require upgrading of older facilities. In addition, the INS did not
enforce provisions of the Act against airlines when facilities were not
acceptable. The INS did not develop performance indicators, under
the Government Performance and Results Act (GPRA), to fully address
the adequacy of facilities.

Actions Taken on Prior Audit Recommendations

        Our prior audit recommended that the INS: (1) ensure airport
authorities and airlines understand design and construction standards,
and what improvements were needed, (2) develop a comprehensive
program to review and upgrade existing4 facilities, (3) apply sanctions
to airlines failing to provide suitable facilities, and (4) develop
performance indicators related to improvement of airport inspection
facilities. In this follow-up audit, we determined whether the INS took
action to implement the specific recommendations we made and
whether those actions resulted in improved airport inspection facilities.

Recommendation No. 1 – “Communicate clearly with airport authorities
and airlines on all matters relating to airport facilities to ensure they
understand: (a) design and construction standards, (b) what
improvements are needed, and (c) the need for the INS to be apprised
of any proposed construction or renovation.”

       Officials at INS headquarters indicated they had not
communicated deficiencies from the prior audit to airlines or airport
authorities. INS headquarters also did not advise INS airport staff of
the prior audit results. One headquarters official said the deficiencies
identified in the prior audit still existed because the INS wanted to
develop its own checklist to review facilities. Yet, our prior audit had
already identified serious deficiencies at 42 airports. The INS could
have used the results of our prior audit to communicate needed
improvements to airlines and airport officials. Instead, the INS chose
to duplicate our prior work and conduct another review of facilities.
Some INS airport staff told us they could have taken actions to correct
some deficiencies had they been apprised of the prior audit results.

4
   “Existing” inspection facilities are those not undergoing or scheduled to undergo renovation
or replacement.

                                               7

                                REDACTED VERSION
                               REDACTED VERSION



      The INS did, however, publish and provide a comprehensive set
of design and construction requirements and furnished them to airlines
and airport authorities. In February 2002, the INS published INS Air
Ports-of-Entry Technical Requirements (ATR)5 with technical assistance
from various INS offices. Requirements include those found in earlier
publications as well as newly promulgated requirements for the
secondary inspection area, interview rooms, search rooms, Joint
Agency Coordination Center (JACC)/INS Coordination Center (ICC),
and in-transit lounges (ITL). The INS sent copies of the ATR to the Air
Transportation Association, American Association of Airport Executives,
and Airports Council International on February 15, 2002.

Recommendation No. 2 – “Work with other Federal inspection agencies
to implement a program for upgrading existing facilities, including:
(a) comprehensive reviews of facilities at all international airports of
entry, (b) complete documentation of review results,
(c) recommendations to airlines and airport authorities for necessary
modifications, and (d) plans to monitor actions taken.”

        INS staff conducted reviews of facilities undergoing construction
or renovation, and security reviews of two other airports but had done
little to develop a program to upgrade existing facilities.

      The INS has a program to review airport facilities undergoing
construction and renovation. During each phase of the construction
project, staff conduct walk-through inspections to identify deficiencies
in design and construction requirements. We obtained copies of
inspection reports for construction projects at [SENSITIVE
INFORMATION DELETED] The most recent inspection reports show
some deficiencies identified during the walk-through inspections had
not been corrected. At [SENSITIVE INFORMATION DELETED]

       The INS also conducted security reviews at two airports to
ensure facilities met the INS’s Airport Border Integrity Anti-terrorism
Program (ABIAP6) requirements. Such reviews are designed to
identify security vulnerabilities and conditions conducive to the
smuggling of aliens, criminals, terrorists, drugs, or other contraband

5
  INS Air Ports-of-Entry Technical Requirements are also posted on the internet at:
www.airportnet.org/depts/Regulatory/INS/INSATRFEB.pdf

6
  The Airport Border Integrity Antiterrorism Program (ABIAP) is a methodology for identifying
security vulnerabilities at airports and providing recommendations for improvements.
                                              8

                               REDACTED VERSION
                          REDACTED VERSION

into the U.S. The INS Office of Security staff last conducted security
reviews in May 2001 at the [SENSITIVE INFORMATION DELETED]
airports and found serious weaknesses in security at both locations.
Both reviews outlined recommendations airlines and airports should
take to correct the deficiencies. However, the INS Office of Security,
Border Integrity Project Manager, said the INS had not communicated
the needed security related improvements to airlines and airport
authorities. The official said the primary purpose of the assessments
was to finalize a database of the findings of similar reviews.

        Thus, although the INS conducts reviews of individual facilities
under construction and limited security reviews of other facilities, it
had done little to develop a comprehensive program to review existing
facilities. One official said the INS was in the process of developing a
comprehensive facilities review form. The INS official said the detailed
review form would take additional time to develop. The INS said its
review results would be sent to the airports in June or July 2002.
However, as of May 20, 2002, the INS had not yet begun and INS staff
could provide only a general outline of what the review would entail.

Recommendation No. 3 – “Apply sanctions permitted by the Act, as
appropriate, to airports and airlines failing to provide suitable facilities.
The scope of sanctions applied should conform to the magnitude of the
deficiency. This could range from a lesser sanction, such as
prohibiting an airline from using a particular gate, to prohibiting the
airline from deplaning passengers anywhere at the airport. The latter
action would require coordination and consultation with other federal
agencies such as the State Department and the Department of
Transportation.”

      The Act permits the INS to withdraw an airport’s designation as
a landing station when airlines fail to provide suitable facilities.
However, the INS had not exercised its authority even when the INS
found that conditions warranted it. For example, two days before a
newly built terminal at the [SENSITIVE INFORMATION DELETED]
airport was scheduled to open, the INS told [SENSITIVE INFORMATION
DELETED] it would not permit the facility to open because it did not
meet the INS’s requirements, such as, [SENSITIVE INFORMATION
DELETED]. However, the INS occupied the facility by the opening date
even though the facility did not meet with the INS’s requirements.




                                      9

                          REDACTED VERSION
                         REDACTED VERSION

Recommendation No. 4 – “Develop performance indicators related to
the improvement of airport inspection area facilities.”

       The INS had not developed performance indicators related to its
efforts to improve airport inspection facilities. In a May 7, 2002,
written response to our prior audit, INS officials said they had
reviewed this recommendation in light of the requirements of GPRA
and the Government Paperwork Elimination Act (GPEA) and concluded
neither were applicable because the INS does not have financial
investment in airport facilities. The response stated the INS would
conduct periodic reviews of airport facilities to determine whether
deficiencies had been corrected. In our judgment, the INS is
responsible for the condition of facilities to the extent that it can
require airlines and airport authorities to make needed improvements.
Our prior audit recommendation was broad enough to permit the INS
to measure its “efforts” to improve facilities. For example, such
measures could include the number of improvements recommended
and implemented by airport authorities. At the exit conference,
however, an INS headquarters official commented that performance
measures are not applicable because the INS has no financial interest
in inspection facilities.

Conditions Noted During the Current Audit

       Deficiencies identified during the prior audit had still not been
corrected. The table on the following page shows some of the repeat
deficiencies we found. A complete list of repeat deficiencies by
location is contained in Appendix III.




                                   10

                         REDACTED VERSION
                                REDACTED VERSION



                                                            Number            Percent
                  Condition                                Deficient
                                                                    7
                                                                              Deficient
    Sterile Corridor Area
                                                             SENSITIVE          SENSITIVE
            SENSITIVE INFORMATION DELETED                  INFORMATION        INFORMATION
                                                              DELETED            DELETED



    Hold Rooms
                                                              SENSITIVE         SENSITIVE
            SENSITIVE INFORMATION DELETED                   INFORMATION       INFORMATION
                                                               DELETED           DELETED

Source: Appendix III


     We also found evidence that detainees had escaped or injured
themselves because prior deficiencies had not been corrected:

      •   INS officials at [SENSITIVE INFORMATION DELETED] airport said
          a detainee escaped from a hold room by [SENSITIVE
          INFORMATION DELETED].

      •   At the [SENSITIVE INFORMATION DELETED] airport, two
          detainees slashed their wrists with [SENSITIVE INFORMATION
          DELETED]. INS design criteria requires that [SENSITIVE
          INFORMATION DELETED].

        We found additional deficiencies not previously identified. In
February 2002, the INS provided airport authorities with a
comprehensive set of design requirements covering areas of the
facility not addressed in other publications. The table on the following
page shows examples of deficiencies in the INS’s latest design and
construction standards. A complete list of new deficiencies by location
is contained in Appendix III.




7
  We reviewed 28 terminals at 12 airports. If only one terminal at the airport had a
deficiency, we reported that the airport had that deficiency.
                                             11

                                REDACTED VERSION
                           REDACTED VERSION


                                             Number       Percent
               Condition                     Deficient    Deficient
 Secondary Inspection Area
         SENSITIVE INFORMATION DELETED        SENSITIVE     SENSITIVE
                                            INFORMATION   INFORMATION
                                               DELETED       DELETED
 Interview Rooms
         SENSITIVE INFORMATION DELETED        SENSITIVE     SENSITIVE
                                            INFORMATION   INFORMATION
                                               DELETED       DELETED
 Coordination Center
                                              SENSITIVE     SENSITIVE
         SENSITIVE INFORMATION DELETED      INFORMATION   INFORMATION
                                               DELETED       DELETED

Source: Appendix III


      These newly identified deficiencies occurred because the INS had
not implemented a program to review facilities and communicate
needed improvements to airlines and airports. For example, at two
airports the secondary inspection area was located in an open area
without walls. At [SENSITIVE INFORMATION DELETED], this resulted
in an alien absconding from the secondary inspection area before
completing his inspection. A secondary inspection area at [SENSITIVE
INFORMATION DELETED] is of similar design.

      Security systems and equipment were ineffective. In view of
increased emphasis on airport security, we conducted random tests of
doors and alarms within the FIS area to determine whether:
(1) doors were locked, (2) emergency exits sounded an alarm when
opened, (3) alarm events were reported at a central location, and
(4) security staff responded timely to alarm events. We also
interviewed INS inspectors and conducted tests in some INS command
centers to determine whether cameras were operable.

      Our audit found that [SENSITIVE INFORMATION DELETED]
airports either did not test security and communications systems or
testing was not adequate. At [SENSITIVE INFORMATION DELETED]
airports officials said they did not do regular testing [SENSITIVE
INFORMATION DELETED] or there were no testing procedures
[SENSITIVE INFORMATION DELETED]. At [SENSITIVE INFORMATION
DELETED] other airports where the INS or the security contractor said
they conducted testing [SENSITIVE INFORMATION DELETED].



                                    12

                           REDACTED VERSION
                        REDACTED VERSION

      We noted inspectors have frequent periods of inactivity when
such testing could be conducted. [SENSITIVE INFORMATION
DELETED] and [SENSITIVE INFORMATION DELETED] at [SENSITIVE
INFORMATION DELETED].

                                                     At [SENSITIVE
                                                INFORMATION
                                                DELETED].




        SENSITIVE INFORMATION
               DELETED




      At [SENSITIVE INFORMATION DELETED], security contractors
are responsible for responding to alarms at each terminal. We tested
response time at one terminal by activating an alarm. Security failed
to respond, and after 20 minutes airline staff turned the alarm off.
[SENSITIVE INFORMATION DELETED]. An airport official said a
$600,000 project to upgrade 60 cameras in the FIS area was
abandoned because the airport authority could not get the INS or
Customs to approve the project.




                                  13

                        REDACTED VERSION
                       REDACTED VERSION




[SENSITIVE
INFORMATION
DELETED].




                                  SENSITIVE INFORMATION
                                         DELETED




   We found other examples of deficiencies in the design and
construction of the facilities, and inoperable security and
communications equipment:




              SENSITIVE INFORMATION DELETED




              SENSITIVE INFORMATION DELETED




                                 14

                       REDACTED VERSION
                         REDACTED VERSION



               SENSITIVE INFORMATION DELETED


      As noted above, the principal reasons for the deficiencies noted
were that the INS did not implement our prior recommendations or
even notify notify its airport staff of our prior audit findings. In
addition, we found other underlying causes for why the INS did not
implement our recommendations.

       INS officials at headquarters and at airports believed that the
risk of serious consequences is low for facilities that do not meet the
INS’s standards. INS staff did not believe that escapes, assaults, or
injuries resulted from inadequacies in facilities. For example, a
headquarters official asked repeatedly whether we had found evidence
to show that such events were related to poor facilities. INS officials
at airports also said they were not aware of any instances of escapes,
assaults, or injuries that were caused by inadequate facilities.
However, this audit and the prior audit noted seven instances of
escapes, abscondings, injuries, and death resulting from such
inadequacies.

       INS headquarters staff perceived that the power of the airline
lobby keeps the INS from using its authority to enforce available
sanctions. The Assistant Chief Inspector, Office of Inspections, said
the INS was reluctant to use its authority. The official cited the
political and economic ramifications of closing down airports or gates
because airlines or airport officials were unwilling to address
deficiencies. The official said corrective actions in response to our
prior audit recommendations are at a standstill because the airlines’
powerful lobby and recent financial situation has made it difficult to
force them to comply. INS officials at some airports concurred with
those comments.

      INS headquarters and airport staff felt that security was not the
INS’s responsibility. An INS official at one airport said INS
headquarters should have provided the airport with staff who were
trained in security related matters. Other INS airport officials said the
airport authority or the airport security contractor was responsible for
security. Further, we found responsibilities for monitoring and
responding to alarms are not clearly defined. A headquarters official
said responsibility is different at each airport. Usually there is only a
verbal agreement between the INS and Customs as to who is to

                                   15

                         REDACTED VERSION
                         REDACTED VERSION

respond to alarms. As noted earlier, however, the ATR states that the
INS has the responsibility to ensure there are adequate
countermeasures within the physical security system of the FIS area to
maintain border integrity.

       Attrition rates for INS inspectors were high. At one airport, an
INS official said some security systems were turned off because the
INS did not have adequate staff to monitor and respond to alarms.
INS officials said the INS lost about 17 percent of its inspectors during
fiscal year 2002. Officials cited very high losses at some airports. For
example, [SENSITIVE INFORMATION DELETED] airport lost 41 percent
and [SENSITIVE INFORMATION DELETED] airport lost 21 percent of its
inspectors.

Conclusion

       We found that the INS had not implemented our prior audit
recommendations to: (1) communicate needed improvements to
airlines and airport authorities, (2) develop a program to review
existing facilities, (3) apply sanctions made available by the Act when
airlines fail to provide suitable landing facilities, and (4) develop
performance measures required by GPRA to assess the INS’s efforts to
obtain suitable facilities. Consequently, airports were still vulnerable
to illegal entry, escapes, injuries, and hiding or disposing of
contraband or documents. In our judgment, the condition of security
systems and equipment has resulted in increased risk that aliens can
avoid the inspection process. There have been escapes, injuries, and
further weakening of the INS’s ability to perform its mission.

      At the exit conference, INS staff indicated they felt that issuing
the ATR sufficiently addressed the need to communicate needed
improvements. They also felt they were making progress with their
program to review existing facilities, and said they had some success
in enforcing compliance with facilities standards.

      In our view, the beliefs among INS staff hindered their ability to
implement these recommendations. Officials should establish a
comprehensive plan to review existing facilities and performance
measures to judge the progress of upgrading airport facilities. Once
the INS does this, it will be able to evaluate its efforts to obtain
suitable facilities. When efforts fail, INS officials should hold airlines
accountable by exercising its authority to impose sanctions. Unless
these measures are taken, we believe that INS airport facilities remain

                                   16

                         REDACTED VERSION
                        REDACTED VERSION

vulnerable to illegal entry, escapes, and smuggling of aliens and
contraband into the Unites States, which compromises the security of
our borders.

Recommendations:

We recommend the Commissioner, INS:


  1. Communicate immediately the deficiencies identified in this audit
     to airlines, airport authorities and INS airport staff.


  2. Establish a timetable for completing reviews of inspection
     facilities at all international airports.


  3. Require INS airport staff to conduct special reviews of security
     systems at INS inspection areas immediately, including: locks,
     alarms, and cameras and whether alarm events are reported at
     a central location.


  4. Report the findings of the special security reviews to airlines and
     airport authorities for immediate corrective action.


  5. Establish a program for periodic reviews and testing of security
     systems including: (a) tests of locks, alarms, and cameras, (b)
     documentation of review results, (c) recommendations to airlines
     and airport authorities for needed repairs, and (d) plans to
     monitor actions taken.


  6. Ensure that the INS communicates the results of its border
     integrity security reviews to airlines and airport authorities and
     establishes a program to monitor actions taken.


  7. Establish written agreements with other agencies or
     organizations that clearly define responsibilities for monitoring
     and responding to alarm events within the FIS area.


                                  17

                        REDACTED VERSION
                          REDACTED VERSION


         STATEMENT ON MANAGEMENT CONTROLS

       In planning and performing our audit of INS Airport Inspection
Facilities, we considered the INS’s management controls for the
purpose of determining our auditing procedures. This evaluation was
not made for the purpose of providing assurance on the INS’s
management controls as a whole.

      Internal control standards published by the General Accounting
Office (GAO) provide that agencies should have management controls
to ensure they evaluate risks, communicate information to those who
need it in a timely manner, and promptly resolve the results of audits.

      We evaluated the INS’s actions to assess risks associated with
airport inspection facilities, ensure needed improvements were
communicated to those responsible for taking corrective actions, and
implement our prior audit recommendations.

       As discussed in the Finding and Recommendations section of this
report, we found the INS had not reviewed its facilities to assess the
risks of escapes, abscondings, assaults, injuries, and smuggling of
aliens and contraband into the U.S. Further, the INS had not
communicated deficiencies in design and construction to persons
responsible for taking corrective actions, nor had it implemented the
prior audit recommendations.

        Because we are not expressing an opinion of the INS’s
management controls as a whole, this statement is intended solely for
the information and use of the INS in managing airport inspection
facilities and security practices. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.




                                    18

                          REDACTED VERSION
                         REDACTED VERSION

 STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

      We have audited the adequacy of the INS’s actions to implement
the recommendations outlined in the prior audit report (Immigration
and Naturalization Service’s Airport Inspection Facilities, Report No.
01-03). The period covered by this audit was October 2000 through
August 2002 and included a review of selected airports, activities,
records, and transactions.

       In connection with the audit and as required by the standards,
we reviewed facilities, activities, records, and transactions to obtain
reasonable assurance about the INS’s compliance with laws and
regulations that, if not complied with, we believe could have a material
effect on program operations. Compliance with laws and regulations
applicable to airport inspection is the responsibility of INS
management.

      Our audit included examining, on a test basis, evidence about
laws and regulations. The specific laws and regulation for which we
conducted tests are contained in:

   •   Immigration and Nationality Act of 1952, which authorizes the
       Attorney General to designate ports of entry into the United
       States, to inspect arriving aliens, and to detain questionable
       aliens;

   •   Government Performance and Results Act of 1993; and
       8 CFR Part 234.

      Except for instances of non-compliance identified in the Finding
and Recommendations section of this report, our tests indicated that,
for those items reviewed, the INS complied with the laws and
regulation cited above. With respect to those transactions not tested,
nothing came to our attention that caused us to believe that INS
management was not in compliance with referenced laws.




                                   19

                         REDACTED VERSION
                               REDACTED VERSION

                                                                           APPENDIX I

                OBJECTIVES, SCOPE, AND METHODOLOGY

       The objectives of the audit were to assess whether: (1) the INS
took timely action to implement the recommendations from the
December 2000 report and (2) actions taken have resulted in
improvements at the airports we identified as having the most serious
deficiencies. We performed our audit in accordance with Government
Auditing Standards issued by the Comptroller General of the United
States and, accordingly, included procedures that we considered
necessary. The audit focused on the actions the INS took and the
causes for the INS’s failure to implement the four recommendations
outlined in the prior audit report. We interviewed officials, examined
internal and external reports covering the period October 1, 2000
through August 31, 2002, and conducted reviews in June 2002 at
selected airports.

      We interviewed INS headquarters and airport staff to determine
what actions they had taken to implement the prior audit
recommendations and the reasons for the INS’s failure to take
corrective actions. We reviewed the INS’s internal G-22 activity
report, significant incident reports, and obtained testimonial evidence
about incidents caused by the condition of facilities.

      We also obtained the INS’s latest design and construction
requirements and incorporated them, where appropriate, into the
inspection facilities review checklist we used to conduct our audit. In
February 2002, the INS published its latest requirements for the
design and construction of inspection facilities at air ports-of-entry.8

      To determine the extent of corrective actions the INS took to
improve facilities, we conducted on-site follow-up reviews in June 2002
at the following 12 airports:



                            SENSITIVE INFORMATION
                                   DELETED



8
    We compared them to previously published requirements and found they had not changed.

                                            20

                               REDACTED VERSION
                                REDACTED VERSION

       We selected 10 of these airports (all but [SENSITIVE
INFORMATION DELETED]) based on: (1) the high number of aliens
referred for secondary inspection during FY 2001, and (2) the high
number of deficiencies identified during our prior audit. Aliens are
referred to secondary inspection for additional interviews and further
examination of their travel documents. In our judgment, aliens
referred for secondary inspection pose a greater risk. We used the
number of deficiencies identified during our prior audit as a measure of
the likelihood of an undesirable event such as an escape, absconding,
or injury to the alien or others. We then combined both of these
factors to select the 10 airports we believe pose the greatest risk.

      In addition, we reviewed [SENSITIVE INFORMATION DELETED]
because of security concerns resulting from the September 11, 2001,
attacks. The 12 airports we reviewed account for [SENSITIVE
INFORMATION DELETED] percent of all aliens referred to secondary
inspection during FY 2001.

      During our reviews of the facilities we also conducted tests to
determine whether key security systems and equipment were
operable. We randomly tested doors to determine whether they were
locked, equipped with alarms, and sounded the alarm when the door
was opened. We also determined whether sounded alarms were
reported to a central location such as the command center or airport
security. In addition, we determined whether cameras were operable,
properly located, and monitored.

      As part of our audit process, we routinely ask management of
the organization audited to furnish us with a signed management
representation letter. In this letter, INS management would certify to
us that: (1) they provided us with all standards, internal reports,
memoranda, and other documentation associated with the design and
construction of inspection facilities at airports; and (2) there are no
relevant management and internal control matters, compliance
matters, contingencies, irregularities, or subsequent events of which
our staff has not been made aware. As of the date of issuance of this
report, the INS Executive Associate Commissioner for Management
declined to sign the letter. Therefore, our findings are qualified to the
extent that we may not have been provided with all relevant
information by INS management.


However, the latest publication also included more specific requirements for the secondary
processing area, interview rooms, command center, and in-transit lounges.
                                             21

                                REDACTED VERSION
                         REDACTED VERSION

                                                            APPENDIX II

                              GLOSSARY

Absconding. The deliberate exit of an individual from the inspection
area prior to completion of inspection, or the escape of an individual
from carrier custody either before or after inspection.

Contraband. Smuggled goods.

Detainee. An individual in INS custody.

Escape. The deliberate exit of an individual who is in custody.

Hold Room. A secure confinement room located in the INS secondary
inspection area, used to hold aliens temporarily pending further action,
i.e., investigation, interrogation, expeditious removal, or withdrawal,
or deportation.

Inspection Area. The sterile, international area, including all gates,
corridors, mobile lounges, and other connectors between the aircraft
and the exit to the public. Inspections of incoming passengers are
performed in this area by the following federal agencies:

   •   Animal and Plant Health Inspection Service (Agriculture)
   •   Customs Service (Treasury)
   •   Fish and Wildlife Service (Interior)
   •   INS (Justice)
   •   Public Health Service (Health and Human Services)

Jetway. A corridor connecting the aircraft to the terminal building.
For international flights arriving the U.S., the jetway generally
connects to a “sterile” corridor leading to the inspections area.

Joint Agency Coordination Center (JACC). A station located
centrally within the inspection area, where federal inspection staff can
directly view the INS’s primary inspection area and view remote areas
via closed circuit television. The JACC may also facilitate
communication among INS staff and other federal agencies that
occupy the inspection area, and direct federal inspection agency
response to incidents within the area.

Juvenile. An alien under 18 years old.

                                   22

                         REDACTED VERSION
                        REDACTED VERSION

Landing Station. Synonymous with Inspection Area. Therefore, an
airport can have more than one landing station.

Modesty Panel. A solid vertical panel in the toilet area of a hold
room for providing privacy to detainees. Modesty panels lessen the
agitation of detainees and their desire to escape.

Primary Inspection Area. The first location within the inspection
area where arriving passengers undergo formal inspection. This area
is operated by INS inspectors, who examine visas, passports, and
other documentation to determine whether passengers may be
admitted into the United States.

Recessed rings. Steel rings to which hold room occupants are
secured. Rings recessed into the seating are less breakable.

Recesses for toilet paper rolls. Recesses in hold room walls for
holding rolls of toilet paper. Unlike conventional holders, recesses
cannot be broken or used as weapons.

Secondary Inspection Area. The location within the INS portion of
the inspection area where incoming passengers may be referred for
questioning, closer examination of documents, processing of additional
documents, or placement into hold rooms.

Sterile Corridor System. The area within the inspection area
through which incoming passengers move from the aircraft to the
primary inspection area. Access into and from the sterile corridor
system should be controlled. Unauthorized persons should neither
enter nor exit without setting off an alarm.




                                   23

                        REDACTED VERSION
                 REDACTED VERSION

                                              APPENDIX III


Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                          24

                 REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       25

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       26

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       27

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       28

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       29

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       30

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       31

               REDACTED VERSION
               REDACTED VERSION




Description and Location of New and Repeat Deficiencies




           SENSITIVE INFORMATION DELETED




                       32

               REDACTED VERSION
                         REDACTED VERSION

                                                             APPENDIX IV

     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
                 ANALYSIS AND SUMMARY OF
          ACTIONS NECESSARY TO CLOSE THE REPORT

      The INS did not respond to the draft report. Therefore, the
status of each of the recommendations is unresolved. The actions
needed to close the report are summarized below:

Recommendation Number:

1.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has communicated the
     deficiencies identified in this audit report to airlines, airport
     authorities and INS airport staff.

2.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has established a
     timetable for completing reviews of inspection facilities at all
     international airports.

3.     Unresolved. This recommendation can be closed when we
     receive documentation showing INS airport staff have conducted
     special reviews of security systems at INS inspection areas
     including: locks, alarms, and cameras and whether alarm events
     are reported at a central location.

4.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has reported the findings
     of the special security reviews and has recommended corrective
     actions to airlines and airport authorities.

5.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has established a
     program for periodic reviews and testing of security systems
     including: (a) tests of locks, alarms, and cameras,
     (b) documentation of review results, (c) recommendations to
     airlines and airport authorities for needed repairs, and (d) plans to
     monitor actions taken.

6.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has communicated the

                                    33

                         REDACTED VERSION
                         REDACTED VERSION

     results of its border integrity security reviews to airlines and
     airport authorities and has established a program to monitor
     actions taken.

7.     Unresolved. This recommendation can be closed when we
     receive documentation showing the INS has established written
     agreements with other agencies or organizations that clearly
     define responsibilities for monitoring and responding to alarm
     events within the FIS area.




                                    34

                         REDACTED VERSION
